IN THE SUPREME COURT OF THE UNITED STATES

No. 20-795
STATE OF NEW YORK, ET AL., PETITIONERS
v.

UNITED STATES DEPARTMENT OF JUSTICE

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

JOINT STIPULATION TO DISMISS

Pursuant to Rule 46.1 of the Rules of this Court, all parties
respectfully stipulate that this case be dismissed. All fees due

to the Clerk have been paid, and each party will bear its own costs.

Respectfully submitted.

{ 4 I Dp (tn dequmd __

BARBARA D. UNDERWOOD
Solicitor General

Office of the Attorney General
28 Liberty Street

New York, NY 10005-1400

Barbara.underwood@ag.ny.gov
(212) 416-8020

Counsel for Petitioners
En Tor

ELIZABETH B. PRELOGAR
Acting Solicitor General
United States Department of Justice
Washington, D.C. 20530-0001

SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel for Respondents

MARCH 4, 2021
